<html>
<title> - REAUTHORIZATION OF AND POTENTIAL REFORMS TO THE FEDERAL LAND RECREATION ENHANCEMENT ACT</title>
<body><pre>[Senate Hearing 114-345]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 114-345

REAUTHORIZATION OF AND POTENTIAL REFORMS TO THE FEDERAL LAND RECREATION 
                            ENHANCEMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2015

                               __________



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                       Printed for the use of the
               Committee on Energy and Natural Resources





         Available via the World Wide Web: http://www.fdsys.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-909                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
LAMAR ALEXANDER, Tennessee           ANGUS S. KING, JR., Maine
SHELLEY MOORE CAPITO, West Virginia  ELIZABETH WARREN, Massachusetts

                    KAREN K. BILLUPS, Staff Director
                PATRICK J. McCORMICK III, Chief Counsel
   LUCY MURFITT, Senior Counsel and Natural Resources Policy Director
           ANGELA BECKER-DIPPMANN, Democratic Staff Director
                SAM E. FOWLER, Democratic Chief Counsel
                DAVID BROOKS, Democratic General Counsel
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria. Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

O'Dell, Peggy, Deputy Director, National Park Service, U.S. 
  Department of the Interior.....................................     5
Wagner, Mary, Associate Chief, Forest Service, U.S. Department of 
  Agriculture....................................................    12
Benzar, Kitty, President, Western Slope No-Fee Coalition.........    17
Brown, David, Executive Director, America Outdoors Association...    27

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Adams, Gaye:
    Statement for the Record.....................................    70
American Recreation Coalition:
    Statement for the Record.....................................    71
American Whitewater, The Mountaineers, Washington Trails 
  Association:
    Letter for the Record........................................    79
Archibald, David:
    Letter for the Record........................................    83
Benson, Bill:
    Letter for the Record........................................    84
Benzar, Kitty:
    Opening Statement............................................    17
    Written Testimony............................................    19
    Responses to Questions for the Record........................    64
Bonowski, Steve:
    Letter for the Record........................................    90
Bragg, Susannah:
    Letter for the Record........................................    92
Breiding, Michael:
    Letter for the Record........................................    93
Brown, David
    Opening Statement............................................    27
    Written Testimony............................................    29
    Responses to Questions for the Record........................    67
Cantwell, Hon. Maria:
    Opening Statement............................................     3
Capps, Don:
    Letter for the Record........................................    94
Christiansen, Chris:
    Letter for the Record........................................    95
Cornett, Nina:
    Statement for the Record.....................................    96
Coyne, Alasdair:
    Letter for the Record........................................    97
Edkins, John:
    Letter for the Record........................................    98
Fleming, Stephen:
    Statement for the Record.....................................    99
Fragosa, Rich:
    Letter for the Record........................................   101
Gall, Mark:
    Statement for the Record.....................................   103
Goetsch, Matt:
    Letter for the Record........................................   104
Gray, Kurt:
    Letter for the Record........................................   105
Hall, Linda:
    Letter for the Record........................................   106
Henderson, Norm:
    Statement for the Record dated 9/25/15.......................   107
Henderson, Norm:
    Statement the Record dated 10/7/15...........................   128
Holliday, Richard:
    Statement for the Record.....................................   129
Holt, Jan:
    Letter for the Record........................................   133
Jenkins, Matt:
    Comment for the Record.......................................   134
Johnson, Lanie:
    Letter for the Record........................................   135
Kelly, Karen:
    Letter for the Record........................................   136
Kelley, Tammy:
    Letter for the Record........................................   137
Larsen, Helen:
    Letter for the Record........................................   139
Lewis, Greg:
    Letter for the Record........................................   140
Marotta, Cynthia:
    Letter for the Record........................................   141
McMichael, Malcolm:
    Statement for the Record.....................................   142
Miller, Chip:
    Letter for the Record........................................   143
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
(The) National Outdoor Leadership School:
    Statement for the Record.....................................   144
Nelson, Dr. Allen:
    Letter for the Record........................................   147
O'Dell, Peggy:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    48
Peters, Robert:
    Letter for the Record........................................   148
Rodgers, Sonya:
    Statement for the Record.....................................   149
Romanello, Jill:
    Letter for the Record........................................   150
Ross, John:
    Statement for the Record.....................................   151
Sample, Stephen:
    Letter for the Record........................................   152
Sandahl, Brooke:
    Letter for the Record........................................   153
Schweiker, Roy:
    Letter for the Record........................................   154
Silver, Scott:
    Letter for the Record........................................   155
Smith, James:
    Letter for the Record........................................   156
U.S. Travel Association:
    Letter for the Record........................................   157
Wagner, Mary:
    Opening Statement............................................    12
    Written Testimony............................................    13
    Responses to Questions for the Record........................    53
Weisman, David:
    Letter for the Record........................................   159
Wiechers, Peter:
    Letter for the Record........................................   160
Wittrock, Paul:
    Letter for the Record........................................   162
Zierhut, Michael:
    Letter for the Record........................................   163

 
REAUTHORIZATION OF AND POTENTIAL REFORMS TO THE FEDERAL LAND RECREATION 
                            ENHANCEMENT ACT

                              ----------                              


                      THURSDAY, SEPTEMBER 17, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. The hearing will come to order. 
Thank you all for being here.
    We are meeting this morning to consider the reauthorization 
and the possible reform of the Federal Lands Recreation 
Enhancement Act, commonly called FLREA. For those who are 
engaged and in tune with this, this act provides the National 
Park Service, the U.S. Fish and Wildlife Service, the Bureau of 
Land Management, the Bureau of Reclamation and the Forest 
Service with limited authority to charge recreation fees. Those 
agencies are further authorized to keep those fees in order to 
maintain and improve recreation sites.
    FLREA initially passed as a legislative rider on the Fiscal 
Year Omnibus Appropriations Bill. The original authorization 
was for ten years. FLREA has been extended now twice through 
the appropriation process. With our Committee holding 
jurisdiction over FLREA and with larger items like our broad 
bipartisan Energy bill which has now been reported from the 
Committee, I think this is a good time to conduct oversight as 
we consider this Act's future.
    While I personally wish that we did not have to charge 
recreation fees, I am generally supportive of FLREA. I want to 
see the Act and its programs continue without interruption as 
we work on longer term reforms, but the path to accomplishing 
that, I think, is not always as easy as it sounds.
    With FLREA's current authorization expiring at the end of 
2016, I think we need to focus on two separate extensions.
    The first will be a temporary one-year extension that 
would, ideally, be enacted before the end of this year. If we 
can do that, we will avoid disruptions to programs that are 
multiyear or that require lead time such as the annual America 
the Beautiful National Parks and Recreation Federal Recreation 
Lands Pass. The House has already passed a one-year extension, 
and I think the Senate needs to do the same.
    The second extension will hopefully be longer term and it 
may include some of the practical ideas that we are seeing to 
reform and to improve FLREA. Without question recreation fees 
have become an important part of the Federal land agencies 
comprehensive funding strategies to support recreation sites 
and services. In FY'14 nearly $280 million was collected by the 
five relevant agencies. The National Park Service took in 67 
percent of the revenue and the Park Service and Forest Service 
together collected 92 percent of the total.
    Yet there still appears to be plenty of room for 
improvement within the fee authorities and structures. The Park 
Service's entrance fees are the most accepted by the public 
along with fees for developed sites such as campgrounds, but a 
number of important questions have been raised. For example, 
why is the Park Service charging individuals permit fees for 
back country access in addition to an entrance fee? Why are the 
cost collections skyrocketing within the agencies?
    BLM and Forest Service have not fared as well as the Park 
Service with the public with respect to recreation fees under 
FLREA. The Forest Service, in particular, has drawn multiple 
lawsuits for its interpretations of standard amenity fees and 
special recreation permit fee authority. It is my understanding 
that the citizens challenging the fees were successful in many 
of those instances.
    I will also mention one incident that stands out in my 
mind. I think members on the Committee have heard me raise 
this. This occurred in the Tongass National Forest a couple 
years ago. I actually had an opportunity to deliver this issue 
personally to the Chief of the Forest Service, and this related 
to a daycare provider who had taken her young charges for a 
picnic out in the Tongass. It was essentially a picnic table 
with a roof overhead. It was not within a cabin. It was just an 
open air picnic table. As a commercial day care operator, she 
had a commercial license. But she was actually presented with a 
fine from the Forest Service for operating her business, her 
commercial business, within the Tongass National Forest without 
a permit. Now what she was doing was taking her kids out to an 
afternoon picnic using the picnic tables there. In my mind that 
is a perfect example of where permitting requirements are 
limiting access to our public lands. I do not think that that 
was the intention. While we have addressed the situation with 
Auntie's Day Care in Wrangell, Alaska, it is examples like that 
that I think get the people's attention, interest and really 
ire.
    Another issue that deserves our attention is a special 
recreation permit authority that FLREA provides to outfitters 
and guides. This authority has been particularly important in 
national forests and refuges and on BLM public lands, but it is 
my understanding that we can make these permits work better.
    Our goals here can be relatively simple and 
straightforward. We should try to keep recreation fees as low 
as possible to ensure that Americans can access and enjoy their 
public lands, we should ensure that these fees are not being 
used to encumber or dissuade visitors, and we should ensure 
that these fees are being used appropriately for maximum 
benefit in maintaining and improving our recreation sites.
    So with that I look forward to the comments from my Ranking 
Member, Senator Cantwell, and we will then have an opportunity 
to hear from the witnesses who have joined us here this 
morning.
    Senator Cantwell?

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Well, thank you, Madam Chair, and thank 
you for holding this hearing this morning to consider 
reauthorization of the Federal Government's authority to 
collect recreational fees. And I welcome the witnesses.
    For those of us representing states with large amounts of 
Federal land, outdoor recreation is an important part of our 
local economy. Senator Wyden and I, just prior to the gaveling 
down, were talking about those very activities within our two 
states and how much it means to us. I did not know that the 
Senator had traveled to the seven wonders of Oregon. So I 
think, maybe next year, as we celebrate our centennial we will 
have to do something similar in Washington.
    Recreation fees have helped the land management agencies 
better provide and protect Federal lands and provide important, 
improved visitor services. In general I support the extension 
of the authority for Federal recreation fees so long as fees 
are kept at reasonable levels and they do not discourage the 
public from accessing the public lands. We must also ensure 
that fee revenues continue to be used to enhance visitor 
experiences on those Federal lands.
    For example, last year recreation fee revenues enabled the 
Forest Service in partnership with the Washington Trail 
Association to maintain and improve 92 miles of popular hiking 
trails across our state including portions of the Quinault 
National Recreation Trail System, the Duckabush Trail, and the 
Upper Big Quilcene Trail. These recreation fees collected in 
the Olympic National Forest enabled the Washington Trail 
Association to donate 11,000 hours of servicing these trails. 
Fee revenues have enabled Mount Rainier National Park to build 
a new ranger and visitor station at Carbon River, fund numerous 
trail and campground and picnic area repairs, and improve and 
help restore some of the park's subalpine meadows.
    Where there is a direct connection between the fee and the 
benefit to the public, recreation fees can improve both the 
management of the Federal land and the visitor experience. It 
is also worth noting that next year will mark the 100th 
anniversary of our National Park System and the Park Service 
collects over $180 million in fee revenues each year. That is, 
by far, the largest amount of any of the Federal agencies.
    Several of us have been working to develop a National Park 
Centennial bill, and I certainly want to work with the Chairman 
on that. This bill would provide the Park Service in its second 
century with additional tools to enable and better manage our 
National Park System. I think we should consider extension of 
fee as an important way to improve the Federal services and 
address the deferred maintenance backlog.
    While these recreation fees can help, I also just want to 
put a reminder in that it is important that we make sure that 
we extend the Land and Water Conservation Fund. Money from that 
conservation fund helps provide important outdoor recreation 
opportunities on Federal land, so I hope that we will take 
advantage and get an agreement reached in the Committee, so 
that we can continue to push that forward.
    I also believe, as the Chair mentioned, that Federal 
agencies need to look for innovative ways to access public 
lands for recreation. I will give an example. For the past few 
years, the YWCA of Seattle has been trying to get the Forest 
Service to issue a permit to allow the YMCA to bring young 
people to national forests for the very first time. Because the 
Forest Service treats the YMCA as a commercial entity, their 
required permit has been held up. We have discussed this with 
Under Secretary Bonnie, as well as the Forest Service, and I am 
happy that the Forest Service as a first step is trying to fix 
this problem and has provided the YMCA a temporary user day 
authorization. But for me, this is a fundamental issue as well. 
We need to make sure that we are encouraging more people to 
visit our national parks and not obstructing them to get there.
    Finally, I just want to mention that I would like to 
highlight some of the issues of how we treat different users of 
the public lands. The entrance fee at Mount Rainer in my home 
state increased this year from $15 to $20 and will increase 
again next year to $25. This represents a 67 percent increase 
in two years. I recognize the Park Service had not instituted 
fee increases for several years and these are comparable with 
other outdoor recreation fees; however, the public seeking to 
visit national parks on Federal land should not be the only 
ones paying higher fees. While park visitors are being assessed 
higher fees on public lands, fees charged for other issues like 
extraction on public lands remain historically low. If we are 
going to ask the public to step up and fund increased 
recreation fees, then we ought to be asking those who are doing 
coal, hard rock mining, and other extractions on Federal lands 
to also see an increase.
    With that, I look forward to hearing from the panel and the 
opportunity to discuss these issues in more detail so that we 
can move forward on continuing to have great resources that the 
public can access.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell, all certainly 
pertinent issues. And I think, again, timely as we are 
exploring this reauthorization and the need for a little bit of 
modernization, but also rationalization.
    This morning we are eager to welcome our panel. We will 
provide each of you an opportunity for about five minutes of 
comments. Your full testimony will be included as part of the 
record. After you have each given your statements we will have 
an opportunity for the members to ask questions of each of you.
    We will begin with Ms. Peggy O'Dell. Ms. O'Dell is the 
Deputy Director for the National Park Service.
    She will be followed by Ms. Mary Wagner, who is the 
Associate Chief for the U.S. Forest Service at Department of 
Agriculture.
    We have Ms. Kitty Benzar, who is the President of the 
Western Slope No-Fee Coalition. We welcome you to the 
Committee.
    And Mr. David Brown, who is the President of the American 
Outdoors Association.
    We look forward to the comments from each of you this 
morning and for the effort that you have made to be here to 
provide testimony.
    We will begin with you, Ms. O'Dell. Welcome.

   STATEMENT OF PEGGY O'DELL, DEPUTY DIRECTOR, NATIONAL PARK 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Ms. O'Dell. Good morning.
    Thank you, Chairman Murkowski, Ranking Member Cantwell and 
members of the Committee for the opportunity to appear before 
you today. And thank you for your opening comments in support 
of fee legislation in general. We look forward to discussing 
the specifics with you.
    Every year over 500 million Americans and travelers from 
around the world visit our national parks, national forests, 
wildlife refuges and public lands to enjoy the recreation 
opportunities offered. Recreation activities on Federal lands 
contributed an estimated $22.1 billion in economic output to 
the surrounding communities and supported an estimated 197,000 
jobs in communities surrounding these sites in 2013.
    The Federal Lands Recreation Enhancement Act (or FLREA) 
provides our agencies with recreation fee authority which has 
allowed us to enhance visits to Federal lands by leveraging the 
fees to implement thousands of projects that directly benefit 
visitors.
    In 2014 Interior's bureaus collected approximately $230 
million in recreation fees. FLREA ensures that efficiency and 
consistency in fee collection and also provides needed 
flexibility for our agencies, each with unique authorizations, 
geographies and management responsibilities to operate 
effectively. The ability to spend recreation fees without 
further appropriation and over multiple fiscal years permits 
the agencies to expend funds for large projects that require 
significant investment.
    Each agency has developed procedures and tools to ensure 
accountability in the administration of the recreation fee 
program. We share the objectives of fair and transparent 
revenue collection, controlling the cost of collection while 
maintaining high levels of service and avoiding the 
accumulation of unobligated revenues.
    Our agencies also provide an interagency pass that covers 
many recreation opportunities across Federal lands. These 
passes provide a simple and cost effective way for visitors to 
pay their entrance and standard amenity fees. The pass program 
includes an annual pass, senior pass, access pass and volunteer 
pass. It also includes a military pass available since 2012 
which provides free access to all current military members and 
their families. And as of September 1st it now includes the 
Every Kid in a Park fourth grade pass which provides fourth 
graders and their families nationwide free access to our 
Federal lands.
    The recreation fee program also supports recreation.gov, 
the Federal website which provides convenient, one stop access 
for those making reservations, securing permits and building 
itineraries for travel to Federal recreation sites around the 
country. Since its launch, recreation.gov has received nearly 
1.2 billion page views and has processed over 7.5 million 
reservations.
    Recreation fees collected under FLREA have funded thousands 
of projects that directly benefit visitors. A few recent 
examples include: A partnership with the Montana Conservation 
Corps to build fencing and repair and improve facilities at 
three campgrounds in the BLM managed Little Rocky Mountains; 
providing additional opportunities for hunting and enhancing 
fishing facilities at Wallkill River National Wildlife Refuge; 
the rehabilitation of 12 miles and relocation of seven miles of 
the Copper Lake Trail at Wrangell St Elias which restored 
wetlands and facilities, hiking, camping and fishing; and 
providing law enforcement service at New Melones Lake 
Recreation Area through a partnership with the Tuolumne County 
Sheriff's Office.
    Visitor support and public participation are integral to 
the recreation fee program. Visitor satisfaction surveys 
conducted in the past six years have found that about 90 
percent of respondents are satisfied with the level of 
amenities and services provided and believe that the recreation 
fees they pay are reasonable. FLREA promotes visitor 
satisfaction by requiring the reinvestment of fee revenue at 
the site where the fees were collected.
    While recreation fees provide a source of funding to 
support recreation at many developed and popular areas, our 
agencies continue to offer a huge number of recreation 
opportunities at no cost.
    The Bureau of Land Management manages over 245 million 
acres and charges recreation fees on less than one percent of 
that acreage. Over 93 percent of the 464 Fish and Wildlife 
Service refuges that are open to the public have free entry. Of 
the 408 units of the National Park Service, 227, more than 
half, do not charge any FLREA fees. Reclamation currently 
charges fees authorized by FLREA at only one site, New Melones 
Lake.
    The Department supports the permanent authorization of 
FLREA. The authority for FLREA is scheduled to sunset September 
30th, 2016. And if it is not reauthorized the lapse in 
authority will detrimentally impact the agency's ability to 
support projects and improve visitor safety, experiences and 
recreation opportunities.
    Furthermore, beginning this fall the agencies will be faced 
with challenging decisions as we try to anticipate the future 
of the program and make decisions about ongoing operations such 
as issuance of the annual pass or future campground 
reservations.
    Ms. Chairman, this concludes my testimony, and I would be 
happy to answer questions from the Committee.
    [The prepared statement of Ms. O'Dell follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
      The Chairman. Thank you.
    Ms. Wagner?

STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Wagner. Madam Chairman, members of the Committee, 
thanks for the opportunity to be here this morning. I 
appreciate your interest in the Federal Land Recreation 
Enhancement Act.
    I'm Mary Wagner, Associate Chief of the Forest Service. 
I've provided written testimony for the record, so I'm going to 
limit my remarks to a few highlighted points this morning.
    National forests and grasslands provide a great diversity 
of outdoor recreation opportunities connecting people with 
nature in an unmatched variety of settings and activities. 
Millions of visitors enjoy the outdoors and experiences on 
these lands. These activities are a significant driver of 
economies and are vitally important to communities and 
businesses across the nation.
    We strive to enhance the experience of visitors to national 
forests and grasslands in our management of recreation 
facilities and programs and identify ways to continue to 
deliver high quality recreation services on national forests. 
Along with appropriated funds and contributions from 
volunteers, partners, private recreation providers and grants, 
recreation fee revenues authorized under the act are a key 
component of a sustainable funding for many developed 
recreation sites. Recreation fee revenue is often leveraged in 
partnership with communities, recreation groups, nonprofit 
organizations and businesses such as outfitter guides which are 
an important part of the local tourism economy.
    We found that most visitors support recreation fees. 
Visitors consistently comment that they're willing to pay a 
reasonable recreation fee if they know the money will be used 
to improve the site that they are visiting.
    In the ten years since the act was passed through public 
engagement, as well as recreation resource advisory councils, 
we've learned a great deal about what works and what doesn't. 
We changed as a result of that learning, and the Forest Service 
continues to improve how we collect recreation fees, deliver 
services and improve facilities. And we strive to do this 
within the constraints of the law. And we'd like everybody to 
have a great story such as the ones that you shared about the 
recognition of the investments and the value to the visitor for 
those investments.
    The Department of Agriculture supports permanent 
reauthorization of the act. The act is an important piece of 
legislation that has helped the Forest Service to provide more 
and higher quality recreation experiences at sites across the 
United States. The act has strengthened the connection between 
visitors and the lands they cherish by requiring that the fees 
they pay benefit the sites where the fees are collected.
    Thanks for the opportunity to share and how the Forest 
Service has implemented the recreation enhancement authority, 
and I look forward to your questions.
    [The prepared statement of Ms. Wagner follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    The Chairman. Thank you, Ms. Wagner.
    Ms. Benzar?

  STATEMENT OF KITTY BENZAR, PRESIDENT, WESTERN SLOPE NO-FEE 
                           COALITION

    Ms. Benzar. Good morning.
    We Westerners know how important our Federal lands and 
waters are to those who enjoy hiking, riding, boating, fishing, 
hunting and other outdoor activities. In my home State of 
Colorado, in Alaska, in all of your states, these lands are our 
backyard. I know that preserving our access to them is 
important to you, and I thank you for taking up this issue.
    For 30 years recreation fees were governed by the Fee 
Authority section of the Land and Water Conservation Fund Act 
which contained this statement of Congressional intent, ``The 
purposes of this act are to assist in preserving, developing 
and assuring accessibility to all citizens of such quality and 
quantity of outdoor recreation resources as are necessary and 
desirable for individual active participation and to strengthen 
the health and vitality of the citizens of the United States.''
    Fee demo suspended that commitment to health and vitality 
for eight years during which the agencies experimented with 
anything goes fee authority treating the natural world as a 
market commodity and putting a price on any experience that the 
market would bear. The results of the experiment clearly showed 
that the public willingly accepts some types of fees and 
actively rejects others. FLREA was Congress' attempt to apply 
those findings and define a framework of limits and rules on 
recreation fees.
    When Congress enacted FLREA it again expressed its 
commitment to the public interest. The then Chairman of the 
House Resources Committee said of FLREA and again I quote, 
``This will put an end to fears that Federal land managers 
cannot be trusted with recreational fee authority because we 
lay out very specific circumstances under which these fees can 
be collected and spent.''
    Indeed FLREA does contain some common sense prohibitions on 
fees for basic access and does so in language that the Federal 
courts have found to be clear and unambiguous. The Forest 
Service and BLM, however, have evaded FLREA's requirements and 
restrictions, and as a consequence FLREA has failed to achieve 
its objectives. These agencies have repeatedly demonstrated 
that they cannot be trusted to honor congressional intent. For 
this reason it's vital that you enact new fee authority that's 
crystal clear in its vision and its purpose.
    The national parks have always been distinctly different 
from other public lands with higher levels of infrastructure 
and services. Entrance fees for parks when kept at modest 
levels are generally well accepted. The rapidly approaching 
centennial makes it imperative that Congress deal with park 
fees soon.
    And because the parks are so different, I don't think 
they've ever been a very good fit under the FLREA framework. I 
offer that fee authority for the Park Service could be removed 
from FLREA and handled in park specific legislation such as a 
centennial bill. Recreation fees for other agencies could then 
be dealt with in separately written language and in a timeframe 
not rushed by the centennial.
    With respect to FLREA's implementation I'm deeply concerned 
about the way the Forest Service and BLM are privatizing our 
public lands by using concessionaires and private contractors 
to get around the rules laid down in the law. Almost all the 
requirements and restrictions that apply to these agencies are 
rendered null and void at sites where a permitee or contractor 
is operating a recreation facility while providing a service. 
This has become a get out of jail free card removing recreation 
policy from congressional oversight altogether. Any legislation 
to reform recreation fees must require that private management, 
where the agencies choose to use it, is transparent to the 
visitor.
    Federal policy should be consistent. It currently is not, 
not even within a single agency.
    I traveled to Alaska this summer and was pleased to see 
that with the exception of concessionaire managed sites, the 
Tongass and the Chugach National Forests are not charging for 
parking at trail heads. But when I passed through Washington 
and Oregon on my way home, it was quite the opposite. Hundreds 
of trail heads in those two states charge what amounts to a 
parking fee just to go for a walk in the woods.
    FLREA contains what Congress and its primary authors 
believe were ironclad prohibitions on fees for hiking, riding, 
boating through undeveloped Federal land solely for parking or 
for general access. The Forest Service and BLM have not 
followed those provisions nor many others. They've become 
expert at taking phrases in FLREA that say one thing and 
twisting them to say that they mean the opposite. The 
legislation that replaces FLREA needs to be very clearly 
written and unambiguous so that not even the most clever 
wordsmith can contort its meaning.
    Regardless of what you enact you must make it clear that 
Congress remains committed to a robust system of public lands 
where the public has access and is welcome, not as customers, 
but as owners.
    I look forward to working with you to craft that 
legislation and restore that tradition.
    Thank you.
    [The prepared statement of Ms. Benzar follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    The Chairman. Thank you, Ms. Benzar.
    Mr. Brown?

STATEMENT OF DAVID BROWN, EXECUTIVE DIRECTOR, AMERICA OUTDOORS 
                          ASSOCIATION

    Mr. Brown. Madam Chairwoman, members of the Committee, 
thank you for taking the time to consider the concerns and 
issues that are necessary to improve the Federal Lands 
Recreation Enhancement Act.
    FLREA is the authority under which more than 8,000 
recreation special use permits are issued in national forests 
and on BLM lands. For that reason America Outdoors Association 
members and our affiliate state organizations are supportive of 
reauthorization provided there are adjustments to the law. 
Since FLREA expires September 30th, 2016, reauthorization is 
necessary to avoid destabilization of thousands of small 
businesses operating on permits authorized under this law.
    While the authorization of this permitting authority is 
important, it will become increasingly irrelevant unless we are 
able to streamline the permitting processes that have become so 
complex and costly. In fact, Federal lands are on virtual 
lockdown to new permitted activities because the processes are 
so complex and costly they often exceed the economies of scale 
of the field staff and the perspective permit holders. Even 
some existing permits are becoming obsolete in some cases 
because they cannot be modified to enable outfitters to adjust 
to changing markets.
    I've prepared a chart with my testimony to give you some 
idea of the hoops that have to be negotiated to authorize 
outfitting and guiding in organized groups on national forests. 
Most of these same issues apply to the BLM. So while I urge you 
to pass FLREA, we desperately need to include provisions that 
streamline the permitting processes for outfitters, organized 
groups and special events.
    The permitting authority in FLREA needs to be strengthened. 
The authority in the current law under Section 802-H is vague. 
When it is strengthened we think that this is also the 
opportunity to encourage efficiency in permit administration 
and NEPA documentation.
    I just want to offer you some suggestions on streamlining.
    Authorization encouragement of programmatic environmental 
assessments in lieu of NEPA documentation for every permit or 
group of permits issued should be considered.
    The use of categorical exclusions should be expanded. 
They're being used in some cases successfully, but the tendency 
is to go to higher and higher levels of analysis.
    The Forest Service and BLM cost recovery rule should be 
revised. It provides a financial incentive for the agencies to 
ramp up documentation requirements when they could be using CAD 
axis. The cost for any small group of outfitters can exceed 
$100,000. For new proposed uses the costs are off the charts 
and are not consistent with economies of scale of the outdoor 
recreation industry.
    Temporary permits should be authorized for new uses. BLM 
doesn't have a temporary permit. The Forest Service limits 
their 200 service days. CQ guidance supports the use of 
categorical exclusions for temporary permits, and this can be a 
way to test new uses in national forests and on BLM lands.
    We also suggest eliminating the needs assessment for 
commercial services unless that process is a statutory 
requirement.
    One of the other issues that has come up is some of the 
executive orders related to Department of Labor issues, and we 
think a provision in FLREA which makes it clear that Forest 
Service and BLM permits are not subject to the Service Contract 
Act is needed.
    I want to wrap up with some perspectives on FLREA and 
recreation fees in general.
    For these fee initiatives in FLREA to survive we must have 
better accountability. We recommend requiring an annual report 
to be published on amenity fee collections and expenditures at 
each fee site not at each forest. Within 90 days of the close 
of the physical year each collection site should provide an 
annual accounting of fees collected and how amenity fees were 
spent. Failure to provide the report should result in the loss 
of fee authority for that resource. If 80 percent of the fees 
are indeed being returned to the site where they are collected 
this reporting should not be problematic.
    Once FLREA is reauthorized we just ask that you plan to 
conduct regular oversight hearings to ensure the intent of 
FLREA is realized. We support a ten-year reauthorization, not a 
permanent reauthorization.
    I've offered a number of other suggestions in my testimony 
including a strategy to dramatically improve trail clearing 
which is so important to access.
    I look forward to answering any questions you have about 
this and other issues covered by my testimony. Thank you again 
for the opportunity to testify.
    [The prepared statement of Mr. Brown follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
        
    The Chairman. Thank you, Mr. Brown.
    Thank you, each of you, for your comments this morning.
    I think the interest here from the Committee is clearly 
from those of us in the West. Thank you, Senator Manchin, for 
joining us and giving us a little geographic distribution here 
around the country. [Laughter.]
    I think for so many of us our public lands, our national 
parks, our Forest Service lands, this is our backyard. And as 
you point out, Ms. Benzar, we use them. We are out there every 
day whether it is walking the dog or going skiing or cross-
country hiking or running. We are using our parks.
    I do not think that there is much push back on fees, again, 
so long as you can see the benefit back to your park. But what 
we are seeing is an increasing cost or a rise in the fees for 
various uses. I think you have pointed out some areas where 
perhaps they are not consistent with the criteria set out in 
FLREA.
    Ms. Benzar, you have outlined some, but a big part of the 
concern that I have is what we are seeing with this rising 
percentage of administrative costs. That is something that the 
public sees no benefit to.
    Ms. O'Dell, within the National Park Service we saw last 
year the cost of fee collection was about 18 percent of fee 
revenue. You spent about five percent on management agreements, 
above that reservation services as well, another five percent 
for administration and overhead. So by my calculation that's 
about 28 percent of all fees doing nothing to benefit the 
parks.
    Ms. Wagner, within the Forest Service it looks worse. For 
the last several years we have seen about 32 to 34 percent of 
fee revenue that went toward administration, overhead and fee 
collection. That is a third of the fees where the public sees 
no benefit. Somehow or other it is going into administration. 
Twenty-four percent of fees went just toward fee management 
agreements and reservation services. Your testimony suggests 
that you reinvest, what, 80 to 95 percent in recreation fee 
sites where the visitor fees were paid. I need to understand 
because there is a clear discrepancy there.
    Back to you, Ms. O'Dell, looking at the percentages of the 
fees going to administrative costs. Last year the Bureau of 
Reclamation spent approximately 56 percent of fee revenue on 
cost of collection and administrative costs. You have to help 
me out here because you will not have the support from the 
public for increasing fees. I do not care if we are going from 
$3 at the Mendenhall Visitor Center to $5 which most people 
would say is insignificant. If they are looking at this and 
seeing a third of your fees are going for administrative 
purposes and 28 percent of fees of the Park Service are going 
for administrative purposes, and at the Bureau of Reclamation, 
56 percent is going for administrative purposes. I am not going 
to buy it, and I do not think anybody else would.
    Tell me what we can do to reduce the overhead involved here 
because it is going, clearly, in the wrong direction.
    We will start with you, Ms. O'Dell, and then we will go to 
you, Ms. Wagner.
    Ms. O'Dell. Thank you for your concern, Senator.
    In the National Park Service we put a great deal of 
emphasis on staffing our entrance stations to national parks, 
so we are employing a lot of people to greet visitors as they 
come in, to take their fee, to give them orientation materials, 
to help them understand how best to use the park, where to find 
their campground or their lodge. We see that that provides a 
huge benefit to the visitor. Sometimes that is the only 
employee they will see and have a direct personal relation, 
interaction with during their time at the park.
    The Chairman. But do you think we want to see more 
employees or do we want to see our parks? It sounds to me like 
what you are doing is you are putting more employees there to 
collect the fees.
    Ms. O'Dell. Well.
    The Chairman. Are you going to----
    Ms. O'Dell. I would say we are putting more employees there 
to help visitors have a safe and enjoyable visit and to help 
them manage getting around in a place that they are not 
familiar with.
    The Chairman. Okay. I will let you finish your comments 
here. Go ahead.
    Ms. O'Dell. Thank you.
    And funding the recreation.gov service has been extremely 
valuable to visitors so that there is one place to go to make 
reservations, for all of the uses that they would like to do in 
national parks and in forests and refuges. It's an interagency 
service.
    The Chairman. But does that bring down our costs?
    Ms. O'Dell. Well, it costs money. That's a contractor.
    And so we----
    The Chairman. But that level of efficiency ought to bring 
down the cost. What we are seeing is just the opposite, so it 
causes me to question how good this is.
    Ms. O'Dell. Well, I would say that having one contractor do 
that for all of our agencies has minimized the cost rather than 
every agency doing, creating their own system and trying to 
manage their own system----
    The Chairman. Let me go to Ms. Wagner because my time is 
expired here, but I think it is important that we understand 
our Forest Service side as well.
    Ms. Wagner. I'm interested in understanding the numbers 
that you're looking at and the numbers that----
    The Chairman. One third.
    Ms. Wagner. That I'm provided. So the data that I have 
shows that the cost for collections for the Forest Service in 
2005 ran about $8 million. In 2014 it's running about $4.8 
million, about 6.7 percent of the expenditures that we're 
making under the fee authority. So the cost of collections is 
not considered an overhead cost, per se, it is the cost of 
having a fee program.
    So when I look at 2014 expenditures in the Forest Service 
we spent $48 million of fee revenue. Eighty-six percent went 
into visitor services, ten percent to the cost of collections, 
three percent to overhead and administration and one percent 
for habitat restoration and fee management agreements.
    So I am curious, given your data, to do a comparison and 
kind of unpack that. It makes me very curious.
    The Chairman. We are wildly apart on this because as we 
look at the numbers for the administration, the overhead and 
the fee collection, basically the stuff that will not go out to 
either help with interpretive or maintenance or just enhance 
the quality of the visitor experience out there, about a third 
of it by our calculations, the visitor does not see.
    I would be happy to have our folks sit down with you and 
look at your numbers, because this is something that if we are 
going to be looking at in a FLREA reauthorization I need to 
have the assurance that the people that are visiting the parks 
in Alaska or elsewhere are having a better experience and not 
just paying for somebody to sit in an office here in 
Washington, DC.
    Let me go to Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Continuing on that same point, this is to Ms. O'Dell and 
Ms. Wagner. I understand that if somebody uses the 
recreation.gov website to make a reservation for a campsite or 
purchase a recreation permit on Federal land that the site adds 
a $9 service fee in addition to the price of the recreational 
permit. If a typical campsite reservation is $20, adding that 
is a very significant increase. Does the agency take into 
account that service fee in establishing the price?
    Ms. Wagner. It is a service fee indeed, for the 
convenience.
    Senator Cantwell. At $9?
    Ms. Wagner. A $9 fee to acquire a permit, to make sure the 
reservation is there for your event, your activity, your 
camping spot. And it is a fee that is charged by the contractor 
to provide that service.
    Senator Cantwell. I think we need to make sure that 
whatever these prices are, you are taking that into 
consideration about what is a reasonable price. To me, I mean, 
I am sure it is a sweet deal for the contractor, but I have no 
idea whether that is the price value for putting that in place.
    Again, I do not know, to me, if this is like what I would 
call domain expertise, which I would, because we are in the 
business of giving people access to the park system, like 
building your own system and having it administered by somebody 
at the Park Service as opposed to an outsource contractor.
    I see I have got my colleague, Senator Daines', attention 
as someone who has been involved in software.
    That this would be a better way to go and that adding $9 
onto a $20 fee does not sound like a reasonable price to me. 
Does anybody have any further comment on that?
    Ms. O'Dell. The recreation.gov contract does expire in 
2016, I believe. I believe we can extend it additional years, 
but we would be happy to engage in more conversation about how 
to have a system that gives the guarantee that visitors are 
looking for as they are coming to their public lands, that they 
will have a campsite when they get there rather than having to 
sit in a line and not get one for the night. So we'd be happy 
to engage in more conversation about that.
    Senator Cantwell. I get that using automation, just as 
opposed to having so many people just old-fashioned phone 
reservation taking, you know, shows it is a good idea. 
Automation is a good idea, but if it is a core competency by 
the agency it is probably better just to build that into our 
system as opposed to having some contractor throw on $9. It 
just sounds like a lot for processing. I mean, even the credit 
card people aren't doing that, even Comcast is not doing that 
on their crazy, you know, pay by phone or pay online thing. I 
don't know, what, there is this $5 or something. If you talk to 
somebody.
    The Chairman. We can get an airline ticket and it 
reserves----
    Senator Cantwell. So anyway, okay.
    I understand that the Mount Baker and Snoqualmie Forests 
have been designated as a pilot test--this is to Chief Wagner--
to test ways to improve the issuance of permits, and so I hope 
the Forest Service will use this to help the YMCA get the 
permits. Can I get your commitment to work with me to resolve 
this issue so that it is not just a temporary pilot?
    Ms. Wagner. Absolutely. And if I could add, I think the 
experience on the Mount Baker-Snoqualmie is something that we 
should look at expanding across a number of regions in a number 
of forests.
    So Mr. Brown's comments about are there opportunities for 
outfitting and guiding. Outfitters and guides, they offer a 
professional service. They are a means to connect people to the 
land and outdoor experiences, and they make it easier for 
people to do that. They value the natural resources. The 
natural resources are their backdrop and setting to offer that 
experience, and they want to offer a quality experience in a 
quality setting.
    We're committed to taking the experience from the Mount 
Baker-Snoqualmie and expanding that to make sure that we can 
simplify and create access and streamline procedures and 
processes and prepare the workforce to work that way.
    Senator Cantwell. Thank you. We will work with you on that, 
it is very important.
    The Mount Rainier fee increase will be 67 percent over a 
two-year period. We have not changed fees charged for coal 
leasing and hard rock mining on Federal lands since 1872. Do we 
believe that this needs to be changed if the public is paying 
more for access to Federal land? Should those mining resources 
on Federal land pay an increase?
    Ms. Wagner. We'd be interested in working with you on that 
particular issue.
    Senator Cantwell. Okay.
    Thank you, Madam Chair.
    The Chairman. Senator Daines?
    Senator Daines. Thank you, Madam Chair.
    I have a question, Mr. Brown. I frame this in the context 
of during the August recess the highlight was spending time 
with my wife and our dog, Ruby, miles and miles into the 
Absaroka-Beartooth Wilderness there, just outside of 
Yellowstone National Park, enjoying our tremendous public lands 
that we love and cherish in the State of Montana.
    I also recognize that outfitters and guides are important 
partners to our Federal land management agencies by helping to 
ensure public access to public lands. I am grateful for these 
guides that, you know, a horse looks better and better as you 
get older and older oftentimes to get into some of the back 
country. I say this as somebody who grew up climbing a lot of 
mountains as a kid, but as the knees start to go, the lungs 
start to go. Again, I am grateful for what outfitters and 
guides can do in so many ways across our great state. But could 
you elaborate on the benefits and values that this partnership 
brings to the visiting public as well as the managing agencies?
    Mr. Brown. Well, thank you, Senator. You know, I want to 
say that this has been one of the most successful programs in 
the Federal agencies and I used to work for the Federal agency. 
So I think the outfitting and guiding program and the 
permitting program, over the years, has been one of the most 
successful in providing access to people who would otherwise 
not have the opportunity to experience some of these great 
resources.
    So it's been a success. It's been a good partnership. I do 
think we're starting to collect some additional overburden of 
regulation and cost as we're discussing in other aspects of the 
fee program that need to be addressed in order for us to be 
able to continue this partnership.
    Senator Daines. Maybe we could have you elaborate on that. 
I have heard concerns regarding some of the challenges 
surrounding permit renewals on Federal lands, certainly in my 
home State of Montana. In fact in your testimony before the 
House Natural Resources Committee you said the permit renewals 
sometimes face and I quote, ``runaway analysis from NEPA.'' 
Unfortunately permitees are required to recover those costs 
from the agency like a blank check according to one Montana 
outfitter. How much of that uncertainty for the outfitters and 
the agencies could be fixed by streamlining NEPA? That is kind 
of the first part. The second part is would you have any 
recommendations on how to create more certainty for those who 
facilitate access to our public lands?
    Mr. Brown. Well I think, the use of categorical exclusions 
would help reduce some of those costs. When permits come up for 
renewal they have to be, they have to have NEPA analysis 
currently. As you know in Montana, the Bob Marshall, those 
costs were $100,000 for a group of small businesses which, you 
know, is hardly significant.
    We don't know what the end game will be in terms of 
analysis. The beginning is environmental assessment. And the 
Passaic Wilderness they went all the way to a 700-page EIS for 
about 1,600 people to go into the Passaic Wilderness. Now cost 
recovery didn't apply there because they started the process 
after or before the cost recovery rule went into effect. But if 
that 700-page EIS was billed to those outfitters, they wouldn't 
exist or certainly the permits wouldn't be issued to them.
    So, you know, these are the kinds of things that I think 
we've got to address. And there are a number of suggestions in 
my testimony about how we can streamline the processes and 
lower the cost for the renewal of those permits and even 
issuing new ones.
    Senator Daines. Now you have made calls for more 
transparency in use of fees. How does that call for 
transparency and use of fees differ from what is being done 
currently?
    Mr. Brown. Well the current reports, it depends from agency 
to agency and even, probably, forest to forest. But generally 
you'll get a glossy report about some of the projects that have 
been done in a forest. And we just recommend that each fee site 
report on how much they collected and where that money has 
gone.
    To give an example, in Idaho permits were coming up for 
renewal. The Forest Service wanted cost recovery. We said, well 
what happened to that more than $1 million the outfitters had 
paid in fees over the last five years? We couldn't get the 
report. Now we finally got it, and discovered they had spent 
$200,000 one year, counting river users, 10,000 river users. So 
we need transparency to make sure that kind of thing doesn't 
happen and the fees get used more appropriately.
    Senator Daines. One last question. I am going to be out of 
time here.
    We are in the midst of and coming through one of the worst 
wildfire seasons in the Western U.S. in history, and that is 
why forest reform is one of my top priorities here in Congress. 
These wildfires create closures, oftentimes, sometimes the back 
country in our national parks as well as in our wilderness 
areas and Federal lands, other Federal lands. Could you expand, 
and you are going to have to do this quickly because I am out 
of time, how better and more active forest management might be 
able to facilitate more access to Federal land?
    Mr. Brown. No, I think in general and I'm probably getting 
off into an area that I'm outside, a little outside of my 
expertise. But I think at some point you do have to look at the 
way the agency spends money in general. Whether it's efficient, 
whether the four tier organizational structure is appropriate 
verses a three tier organizational structure.
    And so those kinds of issues are on a larger scale and 
outside of FLREA, but those are things that I think have to be 
looked at to make sure that the overhead, because each year the 
bureaucracy is going to take a cut of any appropriation. So you 
don't get as much to the ground. And therefore, you can't have 
as much access and certainly as much recreation access and 
other programs unless those efficiencies are improved.
    Senator Daines. Alright, thank you.
    The Chairman. Senator Wyden?
    Senator Wyden. Thank you very much, Madam Chairman.
    Before he leaves I just want to commend Senator Daines for 
mentioning this question of wildfire because, of course, you 
cannot enjoy your treasures if you have infernos going on in 
the neighborhood. So I appreciate your saying that.
    I think colleagues know the 11 Western Senators said before 
we left for the August break that priority one for the West 
this September was to fix this broken system of fighting fire. 
There are a number of pieces to the puzzle, but certainly it 
starts with ending the fire borrowing.
    I commend my colleagues. Senator Gardner is here, Senator 
Murkowski. All 11 Western Senators said we were going to get 
this done this fall because this has been the longest running 
battle since the Trojan War. So I appreciate my colleague 
mentioning that.
    On this question that we talk about today I think it is 
also worth noting that as we go into the end of the Fiscal Year 
budget debate during this counterproductive government shutdown 
what was learned indisputably is how much the American people 
revere their treasures. They looked at the closure of 
government and said, ehh. Maybe this agency, that agency, we 
will see. But what they cared about the most were the special 
places. Whether it was the Western treasures or the ones in the 
East, it sent a very powerful message. I think this is not by 
accident. I mean, recreation is a major economic engine for the 
country.
    Industry people say it approximates close to $650 billion 
worth of spending, and it is not hard to see where the numbers 
come from. Mention was just made of guides and people using 
equipment and getting in the car and hotels and restaurants. It 
is a big economic multiplier.
    I saw that this summer. Senator Cantwell made mention of 
the fact of the tour I made of Oregon's seven wonders. We 
started with Crater Lake and a number of our treasures. I was 
struck again and again that the accounts because every time we 
went to a treasure we would have a meeting with the recreation 
leaders the day before or hours before.
    I want to ask you, Ms. Wagner, about an account I heard 
from the outfitters. Because they said they were facing 
hardships at the beginning of the season when they have to 
purchase all of their permits up front when they have not made 
any money from the trips. And then if the season was not 
particularly good--certainly in the West we saw drought this 
year, rivers running low, forest fires close areas--the guides 
get stuck with permits they have paid for but cannot use.
    I would be interested in your thoughts, Ms. Wagner, and 
your thoughts, Ms. O'Dell, because look it is quite obvious 
that at your agencies you do not get up in the morning and say 
let's spend our day being rotten to guides and outfitters. We 
get that.
    But clearly, as our colleague mentioned, a lot of what has 
happened in the development of this staggering recreation 
engine, the rules and the procedures have not kept up with the 
times. So for you, Ms. Wagner and you, Ms. O'Dell, what can you 
do to help these outfitters and these guides, with a permitting 
system that actually works here on Planet Earth?
    I know that we have all these scenarios and discussion from 
agencies, but what can you do to try to address those two kinds 
of concerns? Because I think those are really representative of 
what I heard as I made my way in seven days through the seven 
wonders.
    Ms. Wagner?
    Ms. Wagner. Senator Wyden, I am glad that you got out to 
experience America's great outdoors. And thank you so much for 
your leadership on wild land fire management and your 
colleagues as well.
    So an exciting development is the Outdoor Industry 
Association has started a group called the Outdoor Access 
Working Group. And David is part of that as well as a number of 
nongovernmental organizations and industry players as well as 
Federal agencies. And I think that is a group that can come 
together and really start collaborating on what are some ways 
to more successfully offer outfitting and guided experiences on 
public lands. So I'm really looking forward to that.
    Senator Wyden. My time is short. I know about the working 
group. I share your view, but exactly how would you, because 
you are hearing these for the first time, I assume. How would 
you go about trying to address the examples I gave?
    Ms. Wagner. For the required purchase of----
    Senator Wyden. Yes. I mean----
    Ms. Wagner. Permits upfront?
    Senator Wyden. The first is they have to buy them up front, 
but they have not made any money. And then if they have 
problems, they are stuck with permits they paid for but cannot 
use.
    Ms. Wagner. And Senator----
    Senator Wyden. What would you do about that?
    Ms. Wagner. Senator, I'm going to have to get back with you 
on that because I'm not familiar with that requirement to 
purchase up front. But I will look into that and get back with 
you and would offer ideas and suggestions for improving that 
after that staff meeting.
    Senator Wyden. When could I have the answers to that?
    Ms. Wagner. Quickly.
    Senator Wyden. Like within a week?
    Ms. Wagner. Absolutely.
    Senator Wyden. Okay.
    Senator Wyden. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden, and know that this 
is an issue that I, too am concerned about. We have the exact 
same situation with our air taxi operators in the Tongass and 
the need to require their permits well in advance. They do not 
know what the summer season is going to do in terms of keeping 
their float planes on the ground, so know that I am with you on 
this one.
    Senator Barrasso?
    Senator Barrasso. Thank you, Madam Chair.
    To Ms. O'Dell and Ms. Wagner, the purpose of the Federal 
Land Recreation Enhancement Act is to provide an element of 
user pay while also limiting what the agencies can and cannot 
charge a fee for.
    In Ms. Benzar's testimony she characterizes the land 
management agencies implementation of the law as agency 
overreach and evasion of the restriction of fees and treating 
citizens as customers rather than owners. Citizens are the 
owners. She further describes hidden or high administrative 
fees, the practice of creating facilities in order to justify a 
fee. Her testimony essentially contains about eight examples of 
instances where she believes a situation is questionable for 
fees being assessed. And from each of the examples under her or 
under your respective jurisdiction would you provide a written 
explanation to this Committee and to me for why the agency has 
the authority under the Federal Land Recreation Enhancement Act 
to take the action outlined in each of the situations that Ms. 
Benzar makes reference to?
    Ms. O'Dell. Certainly, Senator.
    Senator Barrasso. Thank you.
    Senator Barrasso. Ms. Benzar, in the written Forest Service 
testimony Ms. Wagner highlighted what is called the 
Comprehensive Public Involvement Process which uses input from 
Recreation Resource Advisory Committees for fee and fee site 
changes. In your written testimony you state that the 
reauthorization must include, you describe, a procedure for 
citizens to challenge fees that do not appear to comply with 
the law. Do you believe that the Resource Advisory Committees 
really constitute a comprehensive public involvement process? 
And if not, what type of public process do you believe needs to 
be implemented?
    Ms. Benzar. Thank you, Senator.
    I certainly do not think the Recreation Resource Advisory 
Committees have achieved that. They've been nothing but a 
rubber stamp for agency policy. They've held their meetings on 
weekdays in the middle of the day when ordinary citizens can't 
really meaningfully participate.
    The Forest Service chartered committees of which I think 
there were five, none of them have met for several years now. 
They're all defunct because everybody's terms expired, and I'm 
not sure why they haven't been refilled. But the rumor is that 
they can't get enough applicants. Nobody wants to sit on those. 
But that's okay because all they did was rubber stamp things.
    Anyway, they've approved 97 percent of the proposals that 
have been presented to them, and when the rate of approval is 
that high I question the need for any advisory committee at 
all. And I think that any fee legislation authority should be 
so clear that they don't have to seek advice on what the law 
allows them to do. They know what the law allows them to do 
because the law says so.
    So I think there are many other ways that we could involve 
the citizens. A big one would be to make sure Congress is 
notified well in advance of any proposed changes to the fee 
programs and that the public is notified in a meaningful way. 
And then we, as citizens, can have a dialog with you, as our 
elected officials, if we think that there's a problem looming. 
And we can ask you to look into it.
    Senator Barrasso. Thank you.
    Mr. Brown, the Department of Labor uses the Service 
Contract Act to apply executive orders to those who have 
contracts to operate on Federal land. In your testimony you 
state that the Forest Service and BLM permits for outfitters 
and guides should not be subject to the Service Contract Act.
    Can you give us some examples of the types of small 
operators who are impacted and why you believe it is not 
appropriate to apply the Service Contract Act to these permit 
holders?
    Mr. Brown. Well the implementation of Executive Order 13658 
required increasing the minimum wage to $10.10 an hour for 
employees of outfitters or anyone that held a permit or Federal 
contracts. That was applied precipitously on some outfitters 
this year after they had already sold trips attached to their 
permit, so it had a big impact.
    The Department of Labor uses the Service Contract Act as 
justification for imposing this on permit holders. As you know 
the Service Contract Act also requires prevailing wages which, 
you know, we don't have any prevailing wages in the outfitting 
industry but it's a factor that we certainly don't want to have 
to endure in the future.
    So our concern is what's going to happen down the line? And 
there are some real, and I can't get in the weeds on this, but 
technical issues with interpretation of the Fair Labor 
Standards Act that makes it difficult for any outfitter 
operating the back country to determine what their overtime 
standard is.
    Senator Barrasso. I am going to followup with the two from 
the agencies on that, if I could, with both of them.
    Ms. O'Dell and Ms. Wagner, in both your testimonies you 
highlight the economic revenue and the jobs for local 
communities that recreation provides as well as the importance 
of the fees for the agencies. Take a look at what we just heard 
about the minimum wage, the impact of this on the outfitters 
and guides, the permit holders, and they are going to go out of 
business. And I hear that at home in Wyoming. They cannot 
comply with what you are asking or what the President is asking 
through his executive order. So it doesn't really matter what 
the President is doing, isn't he making it harder for the 
public to get recreational opportunities when these folks have 
to go out of business? Does it make it harder for local 
economies to survive harder for people that are trying to hire? 
Aren't jobs going to be lost?
    Your agencies are going to collect less fees in recreation 
areas because there are going to be less people able to provide 
services because of the thing that Mr. Brown testifies about. 
Currently, seasonal employees of ski businesses are exempt from 
the Fair Labor Standards Act so wouldn't it be good to exempt, 
if we are going to exempt ski areas which I agree, shouldn't we 
also exempt people that are providing river rafting and 
horseback riding and guides?
    Ms. Wagner. That is a conversation we would invite with 
Department of Labor in examining the implementation of the 
executive order and their rule. We certainly have concerns 
about the impacts to the outfitter guide community.
    Senator Barrasso. Okay.
    Ms. O'Dell?
    Ms. O'Dell. And we are in the same position. So the 
Department of the Interior continues discussions with 
Department of Labor to try and understand how it might apply to 
outfitters.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator.
    Senator King?
    Senator King. Thank you, Madam Chair.
    Ms. O'Dell, last winter I made myself somewhat obnoxious 
which isn't very difficult for me. [Laughter.]
    In questioning Secretary Jewell about why the Park Service 
did not have a mobile app and an ability to buy passes online 
and have an app that would allow you to get into the parks and 
join the 21st century. I followed up with a letter to the 
Secretary last spring. Where are we on that? Are we making any 
progress?
    Ms. O'Dell. Oh, Senator, I am so happy you asked that 
question because we are prepared to tell you that we hope to 
have a pilot program up and running in several parks, Acadia 
among them, by January 2016 to test out that kind of 
application.
    Senator King. So you are on it?
    Ms. O'Dell. We're on it, sir.
    Senator King. I appreciate the coincidence that Acadia in 
Maine is one of the places.
    Ms. O'Dell. I know. Isn't that amazing?
    Senator King. It is astonishing. [Laughter.]
    No, but seriously, I think that is great. I am delighted to 
hear that because I think it is important. One of the things 
that has concerned me in many parks, there are so many access 
points that people that want to pay do not know where to pay--
there is no place to collect. Acadia is one of those where 
there are many access points. So I think this could be a boon 
to the Park Service and to our parks in terms of revenues 
available.
    The other piece on this that I, based upon my experience at 
Acadia, but I am sure this is the case in other parks, is 
allowing local businesses to sell passes. One of the problems I 
have heard in Acadia is businesses saying we would love to, you 
know, hotels, bed and breakfasts, like to have the pass right 
on the desk. You pay for it. But it has been difficult because 
it is either not available or the business has to pay in 
advance for 100 passes which they really cannot or do not want 
to do. So I hope that is another area that you can look into 
because, again, if you have people that want to pay and we need 
revenues in the park, let's not leave money on the table. I 
hope you will look into that as well.
    Ms. O'Dell. Yes, sir, we are.
    Senator King. Thank you.
    Thank you, Madam Chair. I think we are about to have a 
vote, so that is all I have.
    The Chairman. Thank you, Senator King.
    It is my understanding that we are too. But until we get 
the word here, I am going to continue with a few questions.
    I appreciate what you are saying about the fees and leaving 
money on the table, but I also recognize that when we push it 
too far in that sense we make it uninviting for a visitor.
    I was recently at the Mendenhall Visitor Center in Juneau. 
This is operated by the U.S. Forest Service. Now there is a 
situation there where the fees are very, very minimal. It is 
$3, and basically you can park and use the visitor's center. 
They are looking to do an increase to $5. Not unreasonable. I 
do not think anyone would suggest it is so. But now if you want 
to bypass the visitor's center, you do not want to go to the 
restroom, you do not even want to park your car, if you just 
want to go to the trail--and I am reading the article from the 
Juneau Empire here, which reports that if you just want to go 
to the photo point trail, we are going to charge you the $5.
    When I was out there I said, ``Well logistically how do you 
make this happen? Are you going to be chasing everybody?'' You 
had to have your band that was the color of my sweater here so 
that everyone would know that you had paid your fee. The Forest 
Service suggested we are going to have some kind of a vending 
machine application, and there is not going to be a focus on 
enforcement initially. But again, I do not want to go to my 
Mendenhall Visitor Center and go hiking on the great trails 
that we have out there and feel like I am going to have 
somebody from Forest Service chasing me down the trail to pull 
up my multiple rain jackets to see if I have a wrist band on.
    So making sure that there is a reasonableness with all of 
this, I think, is very, very important to how people feel about 
their treasures and their backyard. I worry about this, and I 
appreciate the fact that you, Senator Barrasso, asked both you, 
Ms. O'Dell, and you, Ms. Wagner, to respond to the very 
specific issues that were raised in Ms. Benzar's testimony 
because I would agree. I think that there is interpretation 
here that goes above and beyond the contours that are set out 
FLREA in terms of those allowable charges for recreation sites.
    Again, I would suggest that perhaps what we are seeing here 
with the proposal at the Mendenhall Glacier may be one of those 
areas that does not, in fact, comport with FLREA in terms of 
the given fee authority. I would like to see, specifically, how 
you can confirm that in fact these increases do fit within what 
is outlined within FLREA.
    Another area and this is primarily, I guess, on BLM lands, 
they charge a special recreation permit fee at a trail head. 
They justify it by classifying hiking as a specialized 
recreational use. Now in my view, special recreational permits 
were supposed to be used for things like group activities or 
recreation events or motorized recreational use. So at what 
point did we get to that spot where hiking became a specialized 
recreational use? I do not think any of us would suggest that 
is the case. So again, I want to know where you believe you 
have the authorities because I think you are pushing it to 
beyond what was understood within the confines of FLREA.
    Let me ask you, Ms. O'Dell, with regards to Park Service we 
have been in a situation where it has been a number of years. 
We went from 2006 until 2014 before you updated the entrance 
fee structure. I understand you are now in the process of 
reviewing and updating the commercial tour fee structure for 
the first time since 1998. These are significant periods of 
time.
    I think it is a fair question to ask whether or not you 
have plans to regularly revisit fee structures. Senator 
Cantwell here mentioned the increase at Mount Rainier, a pretty 
significant increase. I think she said a 25 percent increase 
over the past two years.
    I understand that we are all looking to update things, but 
it seems that we have got some considerable periods of time 
where we are just not doing an assessment. We are not doing an 
analysis. I am curious to know if you have plans to look at our 
fee structures within our Park System on a little bit more 
regular basis than since 1998?
    Ms. O'Dell. I would say that generally, yes, that it just 
should be a standard operating process that you take a look at 
your fee structure repeatedly and tweak it. And then when you 
do have increases they're potentially not so dramatic.
    The long duration between raising entrance fees from 2006 
to 2014 was in response to the economic downturn to try and 
make sure that people had access to parks and didn't make it so 
difficult.
    With the commercial tour operators we are sensitive to 
their concerns and their needs about advanced warning of 
raising fees and letting, being able to pass those costs on to 
their customers in an advanced notice.
    So it is high time that we revisit that. We're glad that 
we're doing it, and we're working collaboratively with that 
community to try and find the right next best step.
    The Chairman. I am going to look forward to the responses 
that you are able to provide the Committee specific to Senator 
Barrasso's questions, what I have raised and again, in direct 
response to Ms. Benzar there.
    On the fee retention issues, Ms. Wagner, you state in your 
testimony that funding collected through FLREA is available and 
these are your words, ``any operation maintenance and improve 
costs at recreation fee sites.'' I think it is very, very clear 
that FLREA does not allow that it be utilized for any 
operation. It can only be used for specific things, again, that 
are listed in the statute.
    We need to make sure that that is exactly what is happening 
and that it is not being used for installation of solar 
systems, removal of invasive plants. This is not what it is 
designed for. It is designed for operation and projects that 
are specific to the visitor experience there.
    We clearly have some issues that we need to look at. I 
think Senator Cantwell, through her example of the service fee 
of $9 on a $20 permit, I think most of us would say that is not 
reasonable. You mention that we have got this contract that is 
up for renewal next year. I do not know, but I think we all get 
frustrated around here because we get so used to using this 
phone.
    Senator Barrasso and I were whispering to one another here. 
I can get my airplane ticket on this. I can book it on this. I 
can use this to go through the TSA and through the counter 
there. It gives me my seat. It gives me everything.
    Senator King. You are singing my song, Madam Chair.
    The Chairman. I know, and we have talked about this. But 
the fact that you cannot get an annual pass for the Mendenhall 
Visitor Center through an app, we can do better than this. I do 
not understand how it needs to be so complicated and why it is 
so extraordinarily expensive. I think we are getting ripped 
off. I will just say it. You cannot have one contractor who has 
the total contract for the administration of the reservation 
systems, all the bookings, have them making what they are 
making and still charge $9 per permit on a $20 permit and that 
is a reasonable service fee. I am thinking this just is not 
working for us.
    So anyway, we have got more that we need to talk about. I 
want to make sure that at the end of the day we are able to use 
these lands. I note with interest the number of discounted 
passes that are provided whether it is to kids, whether it is 
to seniors, whether it is to those who volunteer, whether it is 
to our military, and I think we appreciate that.
    I also know that we leave out many, many, many Americans 
who look at the fee structure and say, well, I'm not going to 
bring my family of four if I'm paying $50 to go out for the 
afternoon. I'm just not going to do it. We need to be cognizant 
of that. We need to be working to make sure that it is 
affordable and accessible. Again, that those fees go to the 
public lands themselves and not to some administrative black 
hole back in Maryland or wherever it sits.
    With that, we have got votes that we will head off to. I 
think you had a fair amount of interest in this discussion this 
morning, but unfortunately we do have some competing interests 
in front of us. So do not take that as a lack of interest. Know 
that we will be addressing this, as I mentioned in my opening 
comments, with an effort to extend this and to look to more 
comprehensive reform.
    With that, I thank you all for your testimony and what you 
have given us this morning. We stand adjourned.
    [Whereupon, at 11:21 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                   [all]
</pre></body></html>
